IN THE STIPREME COTIRT OF THE UMTED STATES

JAMES ROBERT MILLER,

PETITIONE&
vs.

UNITED STATES OF AMERICA,
RESPONDENT.

PROOF OF SERVICE
I, TI{E UNDERSIGNED, SAY:

.

That I am over eighteen years of age, a resident of the County of Los
Angeles, State of Califomia, and that my business address is 65 N. Raymond
Avenue, Suite 320, Pasadena, CA 91103; and
1

2.

I

served the original and ten copies of James Robert Miller's petition
for writ of certiorari to the Clerk of the Supreme Court of the United States
by electronic filing and by mailing to I First Street, N.W., Washington, D.C.

That

20543; and

3. That I

served the petition for writ of certiorari to the Solicitor General by
mailing a copy to Department of Justice, Rm 5614, 950 Pennsylvania

Avenue, N.W., Washington, D.C. 20530-0001;

4.

That I emailed a copy to Petitioner James Robert Miller who is out
custody;

of

I certiff that the foregoing is true and correct. Executed on September 22,
2020, at Pasadena, Califomia.

Katherine Kimball Windsor

